Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


    PALMETTO GBA CLAIMED
SUBSTANTIALLY ALLOWABLE COSTS
       ON ITS PART B FINAL
ADMINISTRATIVE COST PROPOSALS
 FOR FISCAL YEARS 2010 AND 2011




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Lori S. Pilcher
                                               Regional Inspector General


                                                       August 2013
                                                      A-04-13-04008
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY 


  Palmetto claimed administrative costs that substantially complied with the Federal
  Acquisition Regulation and the Medicare contract. Ofthe $46,093,487 in costs that we
  reviewed, $19,514 was not allowable.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
through contracts with private organizations that process and pay Medicare claims. The
contracts with CMS provide for the reimbursement of allowable administrative costs incurred
in processing Medicare claims. After the close of each fiscal year (FY), contractors submit a
Final Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once CMS
accepts the cost proposal, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

From October 1, 2009, through June 20, 2011, CMS contracted with Palmetto GBA (Palmetto)
to process Part B claims for South Carolina, West Virginia, and Ohio. CMS requested that we
perform an audit of the Part B cost proposals that Palmetto submitted for this period.

The objective of our audit was to determine whether the administrative costs that Palmetto
reported on its cost proposals were allowable, allocable, and reasonable in accordance with part
31 of the Federal Acquisition Regulation (FAR) and the Medicare contract.

BACKGROUND

The Medicare contract between CMS and Palmetto set forth principles of reimbursement for
administrative costs. The contract cites part 31 of the FAR (48 CFR chapter 1) as the guiding
regulation for the Medicare contract and provides additional guidelines for specific cost areas.

Palmetto is a single-member, limited liability company owned by BlueCross BlueShield of South
Carolina (BlueCross). BlueCross allocates costs to Palmetto both directly and indirectly.
Palmetto then claims a portion of these costs on its cost proposals.

WHAT WE FOUND

Palmetto claimed administrative costs that substantially complied with the FAR and the
Medicare contract. Of the $46,093,487 in costs that we reviewed, $46,073,973 was allowable,
allocable, and reasonable in accordance with part 31 of the FAR and the Medicare contract.
However, Palmetto claimed $19,514 in its cost proposals that was not allowable, including:

    •   $15,812 ofhome office indirect costs that exceeded the allocable amount and

    •   $3,702 of unallowable costs.



Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13 -04008)
Palmetto claimed these unallowable costs because BlueCross allocated home office costs to
Palmetto that exceeded the amount allocable to Palmetto and the Medicare contract. In
accordance with our previous audit recommendations (report numbers A-04-11-04013 and
A-04-11-040 18), BlueCross implemented a year-end true-up process to correct inherent rounding
differences in its home office cost allocation process and resolve this excessive allocation of
costs for FY 2011, but BlueCross had not yet done so for FY 20 I 0.

BlueCross also allocated to Palmetto costs that were unallowable according to part 31 ofthe
FAR. Palmetto then claimed these costs on its cost proposals. Palmetto claimed these
unallowable costs because BlueCross did not have sufficient controls in place to identify and
classify unallowable costs.

WHAT WE RECOMMEND

We recommend that Palmetto:

    • 	 reduce the costs claimed on its cost proposals by $19,514,

    • 	 continue to have BlueCross perform a year-end true-up process to correct inherent
        rounding differences in its home office cost allocation process, and

    • 	 work with BlueCross to improve internal controls to identify unallowable costs.

PALMETTO GBA COMMENTS

In comments on our draft report, Palmetto concurred with our recommendations and described
the corrective actions it had taken.




Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13-04008)   ii
                                                     TABLE OF CONTENTS 



INTRODUCTION ........................................................................................................................ 1 


           Why We Did This Review ................................................................................................ l 


           Objective ........................................................................................................................... 1 


           Background ....................................................................................................................... I 


           How We Conducted This Review ..................................................................................... I 


FINDINGS ...................................................................................................................................2 


           BlueCross Over Allocated Indirect Costs .........................................................................2 


           BlueCross Allocated Unallowable Costs .......................................................................... 3 


RECOMMENDATIONS ..............................................................................................................3 


PALMETTO GBA COMMENTS ................................................................................................4 


APPENDIXES 


          A: Audit Scope and Methodology ...................................................................................5 


          B: 	 Final Administrative Cost Proposal s With Recommended Costs for 

                Acceptance and Disallowance for Fiscal Years 2010 and 2011 ...............................6 


          C: Related Office oflnspector General Reports .............................................................. 7 


          D: Palmetto GBA Comments ........................................................................................... 9 





Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13 -04008)                                             iii
                                               INTRODUCTION 


WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
through contracts with private organizations that process and pay Medicare claims. The
contracts with CMS provide for the reimbursement of allowable administrative costs incurred
in processing Medicare claims. After the close of each fiscal year (FY), contractors submit a
Final Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once CMS
accepts the cost proposal, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

From October 1, 2009, through June 20,2011, CMS contracted with Palmetto GBA
(Palmetto) to process Part B claims for South Carolina, West Virginia, and Ohio. CMS
requested that we perform an audit of the Part B cost proposals that Palmetto submitted for
this period.

OBJECTIVE

Our objective was to determine whether the administrative costs that Palmetto reported on its
cost proposals were allowable, allocable, and reasonable in accordance with part 31 ofthe
Federal Acquisition Regulation (FAR) and the Medicare contract.

BACKGROUND

The Medicare contract between CMS and Palmetto set forth principles of reimbursement for
administrative costs. The contract cites part 31 of the FAR (48 CFR chapter 1) as the guiding
regulation for the Medicare contract and provides additional guidelines for specific cost areas.

Palmetto is a single-member, limited liability company owned by BlueCross BlueShield of South
Carolina (BlueCross). BlueCross allocates costs to Palmetto both directly and indirectly through
indirect cost pools. 1 Palmetto then claims a portion of these costs incurred at BlueCross on its
co st proposals.

HOW WE CONDUCTED THIS REVIEW

Our audit covered from October 1, 2009, through June 20, 2011. 2 For this period, Palmetto
claimed administrative costs to CMS totaling $48,272,134. This total included pension costs of
$2,178,64 7 that we did not review because they will be the subject of a separate review. We
therefore reviewed $46,093,487 in administrative costs.


1
 Indirect cost pool means a grouping of incurred costs identified with two or more objectives but not identified
specifically with any final cost objective (48 CFR § 9904.401-30(a)(4)).
2
 CMS's contract with Palmetto did not extend through all ofFY 2011 because CMS transitioned from its previous
contracts with intermediaries and carriers to new contracts with Medicare Administrative Contractors.


Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13-04008)
We limited our internal control review to those controls related to the recording and reporting of
costs on the cost proposals. We accomplished our objective through substantive testing.
Appendix A contains the details of our audit scope and methodology and Appendix B contains
a summary of the administrative costs we reviewed. See Appendix C for a list of related Office
of Inspector General (OIG) reports.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                                       FINDINGS

Palmetto claimed administrative costs that substantially complied with the FAR and the
Medicare contract. Of the $46,093,487 in costs that we reviewed, $46,073,973 was allowable,
allocable, and reasonable in accordance with part 31 of the FAR and the Medicare contract.
However, Palmetto claimed $19,514 in its cost proposals that was not allowable, including:

       •    $15,812 ofhome office indirect costs that exceeded the allocable amount and

       •    $3,702 of unallowable costs.

Palmetto claimed these unallowable costs because BlueCross allocated home office costs to
Palmetto that exceeded the amount allocable to Palmetto and the Medicare contract. In
accordance with our previous audit recommendations (report numbers A-04-11-040 13 and
A-04-11-04018), BlueCross implemented a year-end true-up process to correct inherent rounding
differences in its home office cost allocation process and resolve this excessive allocation of
costs for FY 2011, but BlueCross had not yet done so for FY 2010.

BlueCross also allocated to Palmetto costs that were unallowable according to part 31 of the
FAR. Palmetto then claimed these costs on its cost proposals. Palmetto claimed these
unallowable costs because BlueCross did not have sufficient controls in place to identify and
classify unallowable costs.

BLUECROSS OVER ALLOCATED INDIRECT COSTS

According to FAR section 31.20 1-2(d), Palmetto is responsible for "maintaining records,
including supporting documentation, adequate to demonstrate that costs claimed have been
incurred, are allocable to the contract, and comply with applicable cost principles .... "
Furthermore, FAR section 31.203(d) states that "once an appropriate basis for allocating indirect
costs has been accepted, the contractor shall not fragment the base by removing individual
elements." 3

3
    In BlueCross' case, the elements included the lines of business or other cost pools.



Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13-04008)   2
For FY 2010, the total home office indirect costs that BlueCross allocated to Palmetto exceeded
the allocable amount by $98,489. Ofthe $98,489, Palmetto allocated $15,812 to Palmetto's
Part B contract and claimed that amount on its cost proposal. However, contrary to FAR
section 31.201-2(d), Palmetto could not support that these expenses were allocable to the Part B
contract.

Palmetto claimed excessive home office indirect costs because BlueCross allocated indirect costs
to Palmetto in excess of the allocable amount. BlueCross did not adhere to FAR section
31.203(d) when, at various points in the allocation process, it dropped allocations to certain
elements because it allocated by account, by cost center, rather than in the aggregate. Palmetto
officials explained that BlueCross' allocation methodology is necessary to preserve transaction­
level information and that some rounding is inherent.

For FY 2011, in accordance with recommendations from our previous audits (report numbers
A-04-11-04013 and A-04-11-04018), BlueCross implemented a year-end true-up process to
correct inherent rounding differences in its home office cost allocation process.

BLUECROSS ALLOCATED UNALLOWABLE COSTS

As mentioned above, according to FAR section 31.20 1-2(d), Palmetto is responsible for
"maintaining records, including supporting documentation, adequate to demonstrate that costs
claimed have been incurred, are allocable to the contract, and comply with applicable cost
principles .... " Additionally, FAR section 31.205 provides a compilation of costs that are
unallowable and places limits on the amounts of certain other costs that are otherwise allowable.

We identified $85,430 in costs incurred at BlueCross that the FAR identifies as unallowable but
BlueCross recorded to allowable accounts. Ofthe $85,430, BlueCross allocated $32,435 to
Palmetto. Palmetto then allocated $3,702 to the Part B contract and claimed it on its cost
proposals.

Palmetto claimed these unallowable costs because BlueCross did not have sufficient controls in
place to identify and classifY unallowable costs. Examples of such unallowable costs included
payments for alcohol (FAR § 31.205-51 ), governmental penalties (FAR § 31.205-15(a)), public
relations and advertising (FAR § 31.205-1 ), corporate restructuring (FAR § 31.205-27), and
taxes on unallowable costs when invoices included both allowable and unallowable costs (FAR
§ 31.201-2(d)).

                                       RECOMMENDATIONS

We recommend that Palmetto:

    •   reduce the costs claimed on its cost proposals by $19,514,




Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13 -04008)   3
    • 	 continue to have BlueCross perform a year-end true-up process to correct inherent
        rounding differences in its home office cost allocation process, and

    • 	 work with BlueCross to improve internal controls to identify unallowable costs.


                                   PALMETTO GBA COMMENTS

In comments on our draft report, Palmetto concurred with our recommendations and described
the corrective actions it had taken. Palmetto's comments are included in their entirety as
Appendix D.




Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13 -04008)   4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE

Our audit covered from October 1, 2009, through June 20, 2011. For this period, Palmetto
claimed administrative costs to CMS totaling $48,272,134. This total included pension costs of
$2,178,64 7 that we did not review because they will be the subject of a separate review. We
therefore reviewed $46,093,487 in administrative costs. We limited our internal control review
to those controls related to the recording and reporting of costs on the cost proposals. We
accomplished our objective through substantive testing.

We conducted fieldwork at Palmetto and BlueCross offices in Columbia, South Carolina.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable Medicare laws, regulations, and guidelines, including the FAR
        section 31.20 1-2(d), the Medicare Financial Management Manual, chapter 2, section
        190.3, and Palmetto's contract with CMS;

    • 	 interviewed officials at Palmetto and BlueCross about their cost accumulation processes
        for cost proposals and gained an unde rstanding of their cost allocation systems;

    • 	 reviewed external audit reports, including independent auditor's reports, reports related to
        Palmetto's internal controls, and prior OIG reports;

    • 	 reconciled the cost proposals for FY s 20 I 0 and 2011 to Palmetto's accounting records;

    • 	 tested costs for reasonableness, allowability, and allocability by judgmentally selecting
        journal entries, invoices, expense reports, payroll journals, and personnel records;

    • 	 recalculated the home office cost allocations of indirect cost pools using the allocation
        statistical bases provided by BlueCross and determined the excess allocated to Palmetto
        and, more specifically, the portion that Palmetto allocated to the Part B contract; and

    • 	 verified whether BlueCross had implemented a true-up process to correct the inherent
        rounding errors in its home office cost allocation process.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13 -04008)   5
                                  APPENDIXB:
                   FINAL ADMINISTRATIVE COST PROPOSALS WITH
                    RECOMMENDED COSTS FOR ACCEPTANCE AND
                   DISALLOWANCE FOR FISCAL YEARS 2010 AND 2011

                                               Fiscal Year         Fiscal Year
             Cost Category                        2010                2011                    Total
Salaries and Wages                               $8,858,495            $5,898,950             $14,757,445
Fringe Benefits                                   3,037,682             1,890,854               4,928,536
Facilities or Occupancy                                   0                       0                     0
EDP Equipment                                         3,573                     586                 4,159
Subcontracts                                      2,066,236             1,271,709               3,337,945
Outside Professional Services                        93,169                  8,822                101,991
Telephone and Telegraph                              48,294                 15,894                 64,188
Postage and Express                               3,451,334             2,716,592               6,167,926
Furniture and Equipment                                   0                       0                     0
Materials and Supplies                              145,606                117,809                263,415
Travel                                               72,753                 28,126                100,879
Return on Investment                                338,967                111,888                450,855
Miscellaneous                                    24,359,034            13,969,760              38,328,794
Other                                                     0                       0                     0
Credits                                        (12,074,653)           (8, 159 ,346)          (20,233,999)
Forward Funding                                           0                       0                     0

               Total Costs Claimed             $30,400,490            $17,871,644             $48,272, 134
   Less Pension Costs Not Reviewed               1,413,526                765,121               2,178,647
              Total Costs Reviewed             $28,986,964            $17,106,523             $46,093,487

 Less: Recommended Disallowances
        Over-allocated Indirect Costs               $15,812                     $0                    $15,812
                  Unallowable Costs                   2,286                  1,416                      3,702
 Total Recommended Disallowances                    $18,098                 $1,416                    $19,514

       Recommended for Acceptance              $28,968,866            $17,105,107             $46,073,973




Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13-04008)         6
        APPENDIX C: RELATED OFFICE OF INSPECTOR GENERAL REPORTS 

             AUDITS OF FINAL ADMINISTRATIVE COST PROPOSALS 


                            Report Title                             Report Number          Date Issued

   Palmetto GBA Claimed Substantially Allowable Costs                A -04-12-0402 7       03/12/13
   on Its Part A Final Administrative Cost Proposals for
   Fiscal Years 2010 and 2011
   Audit ofPalmetto GBA 's Railroad Retirement Board                 A-04-11-04018         06/29/12
   Final Administrative Cost Proposals for Fiscal Years
   2007 and 2008
   Audit ofPalmetto GBA 's Medicare Part B Final                     A -04-11-040 13       02/23/12
   Administrative Cost Proposals for Fiscal Years 2007
   Through 2009
   Audit ofMedicare Part A Administrative Costs for                  A-05-10-00074         10/27111
   Period October 1, 2006, Through September 30, 2007
   at National Government Services- Medicare
   Contractor Number 00450
   Review ofBlue Cross and Blue Shield ofGeorgia,                    A -04-1 0-00068       08/16111
   Inc. 's Medicare Final Administrative Cost Proposals
   for the Period October 1, 2006, Through May 4, 2009
   Audit ofHealthNow New York, Inc.'s Medicare Part B                A-02-09-01039         05/25/11
   Final Administrative Cost Proposal for Fiscal Year
   2008
   Review ofCIGNA Government Services Durable                        A-04-07-00032         03/16111
   Medical Equipment Regional Carrier Final
   Administrative Cost Proposals for Fiscal Years 2004
   Through 2006
   Review ofCIGNA Government Services Part B Final                   A-04-07-00031         03/16111
   Administrative Cost Proposals for Fiscal Years 2004
   Through 2006
   Audit ofCooperativa de Seguros de Vida de Puerto                  A-02-1 0-01019        02116111
   Rico's Final Administrative Cost Proposal for Fiscal
   Year 2009
   Audit ofCooperativa de Seguros de Vida de Puerto                  A -02-09-01031        12/28/10
   Rico's Final Administrative Cost Proposal for Fiscal
   Year 2008
   Audit ofCooperativa de Seguros de Vida de Puerto                  A -02-08-01026        06/24/10
   Rico's Final Administrative Cost Proposals for Fiscal
   Years 2005 Through 2007
   Review ofBlue Cross Blue Shield Association's Final               A-05-09-00097         06/15110
   Administrative Cost Proposal for Fiscal Year 2008
   Audit ofPalmetto Government Benefits Administrators'              A -04-08-04025        11/04/09
   Durable Medical Equipment Regional Carrier Final
   Administrative Cost Proposals / or Fiscal Year 2007




Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13 -04008)      7
                           Report Title                              Report Number          Date Issued

    Review of Wheat lands Administrative Services, Inc. 's           A -07-08-0413 7       10/21109
    Final Administrative Cost Proposals for Fiscal Years
    2005 Throu~h 2008
   Audit ofPinnacle Business Solutions, Inc. 's, Medicare            A -06-08-00015        04/08/09
    Part A Final Administrative Cost Proposals for Fiscal
    Years 2005 Through 2007
   Audit ofPinnacle Business Solutions, Inc. 's, Medicare            A -06-08-00016        04/02/09
    Part B Final Administrative Cost Proposals for Fiscal
    Years 2005 through 2007
   Audit ofHealthNow New York, Inc. 's, Medicare Part B              A-02-08-0 1003        03/27/09
    Final Administrative Cost Proposals for Fiscal Years
    2005 Through 2007
   Review ofCareFirst Blue Cross/Blue Shield of                      A -03-06-00002        02/10/09
   Maryland Medicare Part A Final Administrative Cost
   Proposals for Fiscal Years 2003 - 2005
   Audit ofPalmetto Government Benefits Administrators'              A -04-08-04023        10/09/08
   Medicare Part B Final Administrative Cost Proposals
   for Fiscal Years 2004 Through 2006
   Audit ofPalmetto Government Benefits Administrators'              A -04-07-04018        10/08/08
   Durable Medical Equipment Regional Carrier Final
   Administrative Cost Proposals for Fiscal Years 2004
   Through 2006
   Audit ofPalmetto Government Benefits Administrators'              A -04-07-04017        I 0/07/08
   Medicare Part A Final Administrative Cost Proposals
   for Fiscal Years 2004 Through 2006
   Audit ofPalmetto Government Benefits Administrators'              A -04-07-04019        08/20/08
   Railroad Retirement Board Final Administrative Cost
   Proposals for Fiscal Years 2002 Through 2006




Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13 -04008)      8
                               APPENDIX D: PALMETTO GBA COMMENTS 



                                                                                                          ~0
                                                                                                  PALMETTO GBA.
             PO 50X 100134 I CO L W~BIA SC 19:::"02·.:11.34 ! I'ALMETTOCiBA COM   I   ISO 9-001   A CELERIAN GROUP COMPANY
             W. JO"E JOHNSON




             May 13, 2013



             LoriS . Pilcher
             Regional h1spcctor General for Audit Services
             Region IV
             61 fors)'1h Street. SW. Suite 3T41
             Atlanta, Georgia 30303

             Dear Ms. Pilcher:

             RE: Audit Report Number A-04-13-04008

             'l11is letter is in response to the OfTiec of Inspector General's drafl report dated April 23, 2013
             entitled "Palmetto GBA Claimed Substantially Allowable Costs on Its Part B Final
             Administrative Cost Proposals for Fiscal Years 2010 and 2011."

             TI1c recommendations contained in the draft report and our responses to the recommendations
             are provided below.

             We recommend that Palmetto GBA:

                  • 	 reduce the costs claimed on its cost proposals by $19.514,

                  • 	 continue to have niueCross perfom1 a year-end tme-up process to correct inherent
                       rounding diiTcn.'llC\-'S in its home ollicc cost allocation process. and

                 • 	 work with BlueCross to improve internal control:; to identify unallowable costs.


             Contractor Response:

                 • 	 Palmetto GI3A concurs with this recommendation and will reduce the cost proposals by
                     $19,514.

                  • 	 HlueCross Home Otlice is continuing to perfonn year end tme ups related to the inhen:nt
                      rotmding differences in its cost allocation process. Belo\\ is a description ofthe true up
                      process provided by the Home Office.

                      Summarv
                      The purpose of this emml1s to eJ;p/ain two prior-year costing adpts/menls that will be
                      made in the{irsl quarter of2012 to satis/51 government cost accounting requirements and
                      relieve outstanding audit concerns. Cost & Budget does not expect these ac{justments to




Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13 -04008)                         9
             LoriS. Pilcher
             :>.1ay 13, 2013
             Page 2

                    result in significant changes to allocated cost by lmsine.1·s segment for 2011. A handfid of
                    large LOBs will reflect a change in allocated cost ofSJOUk- $:!.00kfor the year, but most
                    ofthe rounding adjustments will offset within a segment.

                    Detail
                    Cost & Budget >Flil implement a new process in 2012 to satis.fj• government cost
                    accounting requirements and relieve outstanding audit concerns. The new process will
                    include two pnor-year cost allocatwn adfustments drmng the _first quarter of 201 :!.. An)'
                    billings or cost reports related to government contrac/s will need to be adjusted
                    accordingly. it is important for internal management to note that Cost & Budget does
                    not expect these adfustments to result in significant changes in allocated costfor 2011.

                     !'he cost allocation adjustments wilT luke the form ofjournal entries and will be reflected
                    in a ne1F cost center (Cost Center 05/J.) which will be used exclusively for these prior year
                    cost allocation ad_!ustments. The total cost in Cost Center 05A will be SO. 00; however
                    amounts will be reflected, both positive and negat1ve, per line of business (LOB). The
                    first entry will be made in the January 201:!. costing cycle. The second entry will be made
                    during Februm:v costing. Each entry will be by LOB and will have the appropriate
                    natural account detail. In addition, the related Home Office cost pools w1ll be
                    documented in the descnption .field .for use with government reporting. Again. these
                    emries should not result in sign(ticant allocation changes.

                    F1rst Entn·
                    The purpose of this adjustment is 10 rrwlch the liming of cost and allocation statistics.
                    Historically, some allocation slats used by Cost & Budget were on a one month lag due
                    Ia the availahihty of curre11t month information rnthm the time allotted for the monthlv
                    costing cycle. In order to be tn compltance with government cost accounting regulations,
                    cost o/locations in a calendar year must be based statistical data from that calendor
                    year. Ailocations based on statistics that lag one month are not in compliance with
                    government regularwns. Therefore, a January entl)' will he made to "true-up" 2011 cost
                    allocations using pool stalistics based on calendar year aclivity.

                   Second Entrv
                   The purpose ofthis adjustment is ro enable Cost and Budget to apply cost allocc7tlons to
                   LOBs using dollar amount increments that are not limited to two decimals places.
                   BCBSSC cost allocations are applied to a minimum amount of $0.01. This system
                   process results 111 very small, hut numerous roundmg errors that are detectal>le hy
                   govermnent auditors in total. This 1ssue has resulted in an audit finding during a recent
                   Part B audit. therefore, swrting with the 2011 calendar year. Cost & Budget willnm a
                   costing model in the first quarter o( the following year using the necessmy decimal
                   places to elimmate I) the rounding error in the costing .~ystem and 2) rhe risk offuture
                   govermnenl audit .findings. A handfid o( large LOBs will ref/eel a change in allocated
                   cost of$100k- S200k.for the year. but most of the rounding adjustments >nil offset each
                   other wirhm a segment).




Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13 -04008)                10
             Lori S. Pilcher
             :\1av 13, 20I3
             Page 3

                     • 	 Palmetto GBA rccciwd the following from the Home Otlicc         when~   the allocations
                         originate in regards to identifying unallowable cost:

                       Prior to the ent1y o.f the final payment into the accounting system. expenses related lo
                       management meetings will be rev1ewed by cost accountants and direct reports >nth
                       expertise in assessing allowable vs. unallo>rable costs. This will ensure expenses are
                       appropriately coded to the correct allmrable and unallowable natural accounts prior to
                       !he home office allocation process. In addition. a new genera/ledger account has been
                       established to capture unallowable lodging taxes. The account number is (i5J3, Non­
                       AllowaNc rodging Taxes.


             If you have any questions, please feel free to contact me at 803-763-1176 or Joe Wright at 803­
             7()3-5544.


                                                                   Sincerely

                                                                   Walter J. Johnson



             cc: 	     Joe Wright. Palmetto GBA
                       Mark Wimple, OIG




Palmetto GBA's Administrative Costs Substantially Complied With Federal Regulations (A-04-13-04008)                11
